                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                       I
                       1            ACTION MEMORANDUM
                           1



TO: AIGI                                         I   FILE NUMBER              I   DATE




On 9/21/01, the Chief of Accounting- Operations-NSF
                                      -               contacted OIG. He communicated information he
received from                                  egarding a computer-                 shipped fro
NSF. The computer, adicording t-was           ordered on 812 1 and shipped to NSF on 8127101.
b   placed a hold on thelcomputer awaltlng verification from NSF, i.e., whether it belonged to us.

                                         confirmed that the computer at th
of invoic                                  A 0 who was listed on the invoice and she provide me with a
                            which listed 3                         inspected all 3 computers (and 1
additional computer purchased through invoice               and noted their serial numbers.

 NSF ordered four compdters and received four computers. NSF property was not stolen or diverted. I have
 called                        to notify them of our finding and also called o               inform them that
pthe
  o-oc                           is not one of NSF9scomputers even i         m records indicate it was shipped
 to NSF. I have also called the Chief of Accounting Operations and informed him that there was no theft of
 NSF property.
                               /I

This case is closed.           I(

                               /I
